 

IN THE

Supreme Court of the United States

BEHRMAN CAPITAL IV, L.P., BEHRMAN BROTHERS IV
L.L.C. AND MIDC4P FINANCIAL INVESTMENT, L.P.,
PETITIONERS

Vv.

THOMAS EB, REYNOLDS, TRUSTEE

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,309 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 10, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
